TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 The Telephone Excise Tax Refund Was Not
                 Claimed on Business Tax Returns Primarily
                Because of the Perceived Work and Expense
                             Involved to Do So



                                      September 17, 2008

                              Reference Number: 2008-30-175




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                              DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           September 17, 2008


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Telephone Excise Tax Refund Was Not
                             Claimed on Business Tax Returns Primarily Because of the Perceived
                             Work and Expense Involved to Do So (Audit # 200830045)

 This report presents the results of our review of business taxpayers who did not claim the
 Telephone Excise Tax Refund (TETR), although they appeared to qualify for it. The overall
 objective of this review was to determine why business taxpayers failed to claim the TETR on
 their Tax Year 2006 income tax returns. This review focused on business taxpayers filing a
 U.S. Corporation Income Tax Return (Form 1120), U.S. Income Tax Return for an
 S Corporation (Form 1120S), or U.S. Return of Partnership Income (Form 1065). This audit was
 not included in our Fiscal Year 2008 Annual Audit Plan. It was initiated as a discretionary audit
 based on the results of our audits of the Internal Revenue Service’s (IRS) administration of the
 TETR refunds for individual and business taxpayers.1

 Impact on the Taxpayer
 The IRS estimated that between 13.9 million and 15.9 million business taxpayers would be
 eligible to claim the TETR. Our prior report on the TETR business program concluded that
 94.4 percent of business taxpayers filing for Tax Year 2006 did not claim any TETR, even
 though they most likely qualified for it. To help determine why so few businesses claimed the



 1
  Although Strong Efforts Were Made, a Significant Amount of the Telephone Excise Tax Overcollected From
 Individual Taxpayers May Never Be Refunded (Reference Number 2007-30-178, dated September 26, 2007) and
 The Telephone Excise Tax Refund Program Was Successfully Implemented for Businesses; However, a Large
 Amount of Overcollected Tax Has Gone Unclaimed (Reference Number 2008-30-091, date April 24, 2008).
                    The Telephone Excise Tax Refund Was Not Claimed on Business
                      Tax Returns Primarily Because of the Perceived Work and
                                     Expense Involved to Do So


TETR, we surveyed professional preparers of business tax returns.2 This report provides
information to the IRS regarding the effectiveness of its efforts to communicate the TETR
program to a very broad audience of taxpayers for its use in improving similar efforts in the
future.

Synopsis
The TETR was not claimed on business tax returns for a variety of reasons. Many of the
preparers surveyed (35 percent) stated that their clients did not qualify for the TETR. Another
44 percent of the preparers did not claim the TETR because they believed that the amount of
work and associated fees expended to compute the refund amount was ultimately not worth the
refund that would be received. Still another 20 percent of the preparers either forgot to claim the
TETR for their clients or were not aware that the refund was available to businesses.
Our survey also indicated that a surprisingly high percentage (27 percent) of the preparers who
did not compute the TETR due to the cost involved were not aware that the IRS had offered a
simplified (estimation) method of computing the amount. We provided specific details regarding
the preparers’ responses to our survey questions to IRS officials.

Response
We made no recommendations in this report. However, key IRS management officials reviewed
it prior to issuance and agreed with the facts and conclusions presented.
Copies of this report are also being sent to IRS managers who are affected by the report issues.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Acting
Assistant Inspector General for Audit (Small Business and Corporate Programs), at
(202) 622-8510.




2
    See Appendix IV for our survey narrative and questions.




                                                                                                   2
                     The Telephone Excise Tax Refund Was Not Claimed on Business
                        Tax Returns Primarily Because of the Perceived Work and
                                       Expense Involved to Do So




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Telephone Excise Tax Refund Was Not Claimed on Business
          Tax Returns for a Variety of Reasons...........................................................Page 3
          Additional Survey Results ............................................................................Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Survey Narrative and Questions ..........................................Page 13
       The Telephone Excise Tax Refund Was Not Claimed on Business
          Tax Returns Primarily Because of the Perceived Work and
                         Expense Involved to Do So




                      Abbreviations

IRS             Internal Revenue Service
TY              Tax Year
TETR            Telephone Excise Tax Refund
                  The Telephone Excise Tax Refund Was Not Claimed on Business
                     Tax Returns Primarily Because of the Perceived Work and
                                    Expense Involved to Do So




                                             Background

The telephone excise tax was first imposed in 1898 to fund the Spanish-American War.
Originally, the tax applied to all telephone use. Later, it was revised to apply to long-distance
calls on which call duration and distance were factored into the price. However, many
telecommunications companies made changes to their billing models, factoring only call duration
and not distance into their billing prices. As a result, these charges no longer met the
requirements of the tax code and should not have been subject to tax.1
Several businesses litigated the taxability of these portions of the telephone excise tax and, after
five circuit court losses, the Department of the Treasury announced on May 25, 2006, that it was
conceding the legal dispute over the tax and that the Department of Justice would no longer
pursue litigation. The Internal Revenue Service (IRS) also announced its decision to stop
collecting the tax. The IRS then implemented a major program for both individual and business
taxpayers to receive refunds for the portion of their telephone excise taxes paid on long-distance
or bundled telephone service billed after February 28, 2003, and before August 1, 2006, that did
not meet the statutory taxability requirements.
At that time, the Telephone Excise Tax Refund (TETR) was the most wide-reaching tax refund
in the history of the IRS, which estimated that it would affect between 145 million and
165 million individual taxpayers and between 13.9 million and 15.9 million business taxpayers.2
The IRS developed a process to refund these monies in a timely manner and made the request
process relatively easy for most taxpayers. At the same time, the IRS wanted to minimize the
number of refunds in excess of taxes collected and discourage requests for overstated refunds.
We recently reported on the IRS’ efforts to administer the refund program for individual and
business taxpayers in two separate reports.3 Our report on the business program concluded that
94.4 percent of business taxpayers did not claim any TETR–even though they most likely
qualified for it–and that only a small portion of the tax collected from them will ever be
refunded. The IRS made significant efforts to advise business taxpayers of the TETR program



1
  Five circuit court cases held that a telephonic communication for which there is a toll charge that varies with
elapsed transmission time and not distance (time-only service) is not taxable toll telephone service as defined in
Internal Revenue Code Section 4252(b)(1).
2
  This estimate includes corporations, S corporations, partnerships, non-profit filers, Government entities, and
businesses no longer in operation. Estates and trusts were not included in the estimate.
3
  Although Strong Efforts Were Made, a Significant Amount of the Telephone Excise Tax Overcollected From
Individual Taxpayers May Never Be Refunded (Reference Number 2007-30-178, dated September 26, 2007) and
The Telephone Excise Tax Refund Program Was Successfully Implemented for Businesses; However, a Large
Amount of Overcollected Tax Has Gone Unclaimed (Reference Number 2008-30-091, date April 24, 2008).
                                                                                                              Page 1
                  The Telephone Excise Tax Refund Was Not Claimed on Business
                     Tax Returns Primarily Because of the Perceived Work and
                                    Expense Involved to Do So



and to simplify the claim process. However, a low percentage of taxpayers claimed the TETR,
and a low percentage of the overall amount of tax collected was refunded.
To request the TETR, businesses were required to complete a Credit for Federal Telephone
Excise Tax Paid (Form 8913) and file it with their tax returns. They were to complete
Form 8913 by using the actual amount of refundable long-distance telephone excise taxes that
they had paid between March 2003 and July 2006 (41 months) or by using an estimation method
developed by the IRS.
The estimation method was designed by the IRS to simplify the refund calculation and to reduce
the burden on taxpayers by helping them avoid having to recover their old telephone records.
The estimation method required businesses to compare only two telephone bills from Tax
Year (TY) 2006 (April and September) to determine the percentage of their telephone expenses
attributable to the excise tax on long-distance service. They had to first calculate the telephone
tax as a percentage of their April 2006 bill (which included the excise tax for both local and
long-distance telephone service) and of their September 2006 telephone bill (which included
only the tax on local telephone service). The difference between these percentages was to be
multiplied by the total telephone expenses for the 41-month period. The refund was capped at
2 percent of telephone expenses for businesses with 250 or fewer employees and 1 percent for
businesses with more than 250 employees.
During the closing conference of our prior audit to evaluate the TETR program for businesses,
we discussed with IRS management the possibility of taking a survey to determine why such a
large number of business taxpayers failed to claim the TETR. We and IRS management agreed
that the results of such a survey could be beneficial to the IRS. Because we had received
approval from the Office of Management and Budget to contact taxpayers for this purpose, we
agreed to perform this survey.4
Our work was performed from the IRS Campus5 in Ogden, Utah, during the period February
through May 2008 and consisted of a survey of professional tax preparers who had completed
business tax returns. Our review included a survey of preparers of returns filed and processed
nationwide. We did not assess internal controls because doing so was not applicable within the
context of our objective. We believe that the evidence we obtained provides a reasonable basis
for our findings and conclusions based on our objective. Detailed information on our objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




4
  Appendix IV contains the narrative and questions used during our survey. We provided specific details regarding
preparers’ responses to our survey questions to IRS officials.
5
  Campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct errors,
and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                          Page 2
                  The Telephone Excise Tax Refund Was Not Claimed on Business
                     Tax Returns Primarily Because of the Perceived Work and
                                    Expense Involved to Do So




                                       Results of Review

The Telephone Excise Tax Refund Was Not Claimed on Business Tax
Returns for a Variety of Reasons
We identified 5.3 million business tax returns [a U.S. Corporation Income Tax Return
(Form 1120), a U.S. Income Tax Return for an S Corporation (Form 1120S), or a U.S. Return of
Partnership Income (Form 1065)] that did not claim
the TETR for TY 2006 and did include a designee
telephone number.6 We selected a statistically valid         Primarily, the TETR was not
sample of 163 of these returns and made contact with       claimed on business tax returns
the professional tax return preparers responsible for      because the preparers believed
                                                             that the amount of work and
preparing them. We asked the preparers a series of           associated fees expended to
questions that included why the TETR was not                compute the refund would not
claimed, whether they were aware of the IRS’                be worth the refund received.
estimation method, and how they obtain tax
information (see Appendix IV).
We spoke directly to 163 professional tax return preparers. However, we did not receive specific
responses from all 163 preparers on each question for various reasons. Some responders
1) concluded the survey midway because of time constraints or 2) chose not to provide answers
to some of the questions. For others, some questions were not applicable based on their response
to a prior question. For example, if a preparer did not claim the TETR because the business did
not qualify for it, we did not ask the preparer if he or she would amend the business’ tax return to
claim the TETR. Therefore, throughout this report, our sample sizes change to reflect the
numbers of preparers answering the questions.
Figure 1 provides an overview of why the TETR was not claimed on business tax returns. Each
reason is discussed in more detail in this report. We provided a complete list of all preparers’
responses to the IRS in a separate document.




6
 The 5.3 million business tax returns did not include taxpayers with other than a fiscal year ending
December 31, 2006.
                                                                                                       Page 3
                The Telephone Excise Tax Refund Was Not Claimed on Business
                   Tax Returns Primarily Because of the Perceived Work and
                                  Expense Involved to Do So



                  Figure 1: Overview – Why the TETR Was Not Claimed



      Expense Outweighed Benefit                                                                    44%

                        Did Not Qualify                                                  35%

                            Not Aware                     10%

                            Overlooked                    10%

                              Confused         1%

                                           0%         10%          20%         30%         40%          50%
                                                                     Percentages
  Source: Our survey of professional preparers of business tax returns to determine why many businesses did not
  claim the TETR.
Some taxpayers simply did not qualify for the TETR
Preparers of 56 (35 percent) of 162 business returns in our sample indicated that their clients did
not qualify for the TETR, mainly because they had no telephone and/or long-distance service.
Of the 56 preparers who believed that their clients did not qualify, 35 indicated that their clients
had no telephone and/or long-distance service. Others stated that their clients had claimed the
TETR on another tax return (individual return or the parent corporation return).

Many preparers did not claim the TETR for their clients because they believed
that the cost to compute it outweighed the benefit
The largest portion of businesses taxpayers–44 percent (71 of 162)–did not receive the TETR
because preparers believed that the cost was higher than the benefit. That is, the perceived
amount of work and associated fees that would have been expended to compute the refund
amount were ultimately not worth the refund that would be received.
The significance of these numbers increases if the businesses that did not qualify for the TETR
are eliminated from the sample. Considering only those business taxpayers that most likely
qualified for the TETR, the percentage of those not claiming it due to the cost to compute it
increases. Our survey showed that preparers for 67 percent (71 of 106) of the businesses that
most likely qualified for the refund did not claim it because of the work and expense involved.
Many of the tax preparers were unaware of the estimation method. The IRS designed its
estimation method in an attempt to simplify the refund calculation and to reduce the burden on

                                                                                                        Page 4
               The Telephone Excise Tax Refund Was Not Claimed on Business
                  Tax Returns Primarily Because of the Perceived Work and
                                 Expense Involved to Do So



business taxpayers by helping them avoid having to recover their old telephone records. Overall,
the survey indicated that 30 percent (49 of 161) of the preparers responding were not aware of
the estimation method. This percentage includes those who were not aware that the TETR was
available for businesses (discussed later in this report).
More important, however, is the fact that 27 percent of those who believed that the amount of
work and associated fees outweighed the amount of refund their clients would receive were
unaware that the estimation method was available. Of the 71 preparers who did not claim the
TETR because of the related cost, 19 were unaware of the estimation method.

Some preparers were not aware of the TETR
Our survey revealed that more than 10 percent (17 of 162) of the preparers were not aware that
the TETR was available to businesses. To further develop this issue, we tried to gather data on
the relative sizes of the preparer firms that were not aware of the TETR as well as the sources of
information they used to obtain information needed to prepare tax returns.
Small tax return preparation firms appeared less likely to have a clear understanding of
the TETR program. Our survey indicated the possibility that the smaller the firm, the less
likely preparers might be aware of tax law changes or new tax programs. As mentioned above,
17 of 162 preparers were not aware that the TETR was available for businesses. Fifteen
(88 percent) of the 17 preparers worked for a firm with 5 or fewer tax professionals.
Overall, 59 percent (90 of 152) of those preparers who would disclose the size of their firm were
practicing in an office with 5 or fewer professionals. Considering this situation, 17 percent
(15 of 90) of those working in the small firms were not aware that businesses could claim the
TETR. By contrast, only 1 (1.6 percent) of the 62 preparers from the large firms (those with
more than 5 professionals) who would disclose the size of the firm was unaware of the TETR.
At the same time, we found a correlation between the size of the firm and how it obtains
information needed to prepare tax returns. Commercial tax research services and the IRS web
site (IRS.gov) were the most common means for tax preparers to obtain tax information. As
shown in Figure 2, 74 percent (46 of 62) of the preparers from the large firms subscribed to and
used commercial tax research services, while 48 percent (43 of 90) of the preparers from small
firms subscribed to such services. Preparers from the small firms tended to rely more heavily on
information located at IRS.gov. Our survey showed that 49 percent (44 of 90) of the preparers
from small firms relied on the IRS web site for their tax information, while only 29 percent
(18 of 62) of the preparers from the large firms used it for tax research.




                                                                                            Page 5
                  The Telephone Excise Tax Refund Was Not Claimed on Business

                     Tax Retums Primarily Because of the Perceived Work and

                                   Expense Involved to Do So



                      Figure 2: A Comparison of Small and Large Firms


                               80%


                               70%


                               60%


                               50%


                               40%


                               30%


                               20%


                               10%


                                 0%       Not Aware of the TETR   Reliedon Commercial
                                              for Businesses       Ruurch Services
      III Small Firms «S professionals)            17%                                         49%
      • Large Firms (>5 professionals)                                   74%                   29%


Source: Our surn~v ofprofessional preparers ofbusiness tat returns to determine lIhv tuauv businesses did not
claim the TETK

Some preparers forgot to claim the TETR for their clients, and a small number
were confused as to how to claim it in their situation
Our survey revealed that 10 percent (16 of 162) of the preparers were aware of the TETR and
believed that their clients qualified for the refund. However, they overlooked the refund when
filing their client's tax return.
We found t\VO other preparers did not claim the TETR for their clients because
connlsed as to how to claim it in a              situation.


Additional Survey Results

Most preparers had no plans to file amended returns to claim the TETR
The IRS does not allow the TETR to be claimed on TY 2007 tax returns but will allow a
taxpayer to file an amended return for TY 2006. As expected, most preparers who knew about
the estimation method, but still considered that the cost to claim the TETR outweighed the
benefit, were not planning to file amended returns. In addition, we found that most of the other

                                                                                                        Page 6
                The Telephone Excise Tax Refund Was Not Claimed on Business
                   Tax Returns Primarily Because of the Perceived Work and
                                  Expense Involved to Do So



applicable preparers responding to our survey were not planning to amend their clients’ returns
to claim the TETR.
Figure 3 presents details of the preparers’ responses to our question regarding amending their
clients’ tax returns.
           Figure 3: Plans to File Amended Tax Returns to Claim the TETR

    Reason for Not Claiming              Number No Plans                          Would
          the TETR                         of       to               Would       Consider    No
                                        Preparers Amend              Amend       Amending Response
       Cost Outweighed the
              Benefit
                                            19             13            1             2              3
      (preparer not aware of the
         estimation method)

     Not Aware of the TETR                  17              9            1             4              3
      Overlooked the TETR                   16              7            2             4              3
    Confused About Claiming
    the TETR for a Business                  2              1            0             1              0

               Totals                       54             30            4            11              9
 Source: Our survey of professional preparers of business tax returns to determine why many businesses did not
 claim the TETR.

Preparers would have preferred a standard TETR amount for businesses, similar
to that provided to/for individual taxpayers
Rather than use of an estimation method, the IRS allowed individual taxpayers to claim a
standard amount based on the number of exemptions claimed on their individual returns (see
Figure 4). No records were needed to support the individual taxpayers’ requests, and individuals
did not have to assemble 41 months of telephone bills to determine their TETR amount.
Requesting a standard amount required the completion of only one additional line on the
U.S. Individual Income Tax Return (Form 1040).




                                                                                                          Page 7
               The Telephone Excise Tax Refund Was Not Claimed on Business
                  Tax Returns Primarily Because of the Perceived Work and
                                 Expense Involved to Do So



                  Figure 4: TETR Standard Amounts for Individuals

                            Exemptions               Standard Amount
                                   1                          $30

                                   2                          $40

                                   3                          $50

                              4 or more                       $60
                      Source: 2006 Form 1040 Instructions (page 60).

During the planning stages for our survey, IRS management suggested that we ask the contacted
preparers the following question: “if a standard amount had been offered for business taxpayers,
would you have claimed it even if it was less than what you considered to be the actual amount
of TETR owed to your clients?” We included such a question in our survey and found that
almost all of the preparers responding (130 of 138) would have taken advantage of a standard
TETR amount for their business taxpayers if the IRS had provided one.




                                                                                         Page 8
                  The Telephone Excise Tax Refund Was Not Claimed on Business
                     Tax Returns Primarily Because of the Perceived Work and
                                    Expense Involved to Do So



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine why business taxpayers failed to claim
the TETR on their TY 2006 returns. This review focused on business taxpayers filing a
U.S. Corporation Income Tax Return (Form 1120), U.S. Income Tax Return for an
S Corporation (Form 1120S), or U.S. Return of Partnership Income (Form 1065). To accomplish
the objective, we:
I.      Identified business taxpayers who had not claimed the TETR on their TY 2006 returns.
        A. Performed queries of the IRS Business Return Transaction File1 using the Treasury
           Inspector General for Tax Administration Data Center Warehouse2 to identify
           taxpayer accounts on which the TETR was not claimed (included businesses filing
           Forms 1120, 1120S, or 1065). We selected a statistically valid sample of 163 returns
           from a population of 5,324,957 business returns that had not claimed the TETR and
           did include a designee telephone number. We selected the sample using a 90 percent
           confidence level, 50 percent expected error rate, and +6.5 percent precision.
        B. Validated, verified, and assessed the reliability of computer-processed data by
           matching 20 records meeting the sample criteria against data contained on IRS
           databases to ensure that the computer selection criteria were accurate.
II.     Contacted business tax return preparers identified in the sample selected and determined
        why they had not claimed the TETR.
        A. Obtained authorization from Office of Management and Budget to contact preparers.
        B. Developed a written discussion narrative with specific questions that could be used to
           obtain the required information from preparers.
        C. Using the discussion narrative, contacted preparers identified in Step I.A. and
           obtained specific information.
III.    Summarized and evaluated information obtained from business tax return preparers
        contacted to determine why they had not claimed the TETR.


1
  The Business Return Transaction File contains data transcribed from the initial input of the original business tax
returns during return processing. Subsequent or amended return data are not contained in this File.
2
  The Data Center Warehouse is a collection of IRS databases containing various types of taxpayer account
information that is maintained by the Treasury Inspector General for Tax Administration to analyze data for ongoing
audits.
                                                                                                            Page 9
           The Telephone Excise Tax Refund Was Not Claimed on Business
              Tax Returns Primarily Because of the Perceived Work and
                             Expense Involved to Do So



A. Summarized the information obtained from the preparers. For each reason or explanation
   given, we determined the overall number of preparers who provided that reason and
   determined the percentage of the whole.
B. Evaluated whether the IRS’ efforts to inform taxpayers about the TETR were effective.
   We also determined whether additional methods of communicating tax information to
   taxpayers are available to the IRS and whether those methods could be beneficial to the
   IRS in the future.




                                                                                    Page 10
              The Telephone Excise Tax Refund Was Not Claimed on Business
                 Tax Returns Primarily Because of the Perceived Work and
                                Expense Involved to Do So



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Director
Larry Madsen, Audit Manager
Bill R. Russell, Audit Manager
L. Jeff Anderson, Senior Auditor
Roy E. Thompson, Senior Auditor




                                                                                      Page 11
              The Telephone Excise Tax Refund Was Not Claimed on Business
                 Tax Returns Primarily Because of the Perceived Work and
                                Expense Involved to Do So



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Assistant Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Director, Tax Forms and Publications, Wage and Investment Division SE:W:CAR:MP:T
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Services and Enforcement SE
       Acting Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                     Page 12
                   The Telephone Excise Tax Refund Was Not Claimed on Business
                      Tax Returns Primarily Because of the Perceived Work and
                                     Expense Involved to Do So



                                                                                                 Appendix IV

                        Survey Narrative and Questions

    1. Hello, I’m calling from the Treasury Inspector General for Tax Administration, a Federal
       agency that has oversight of the Internal Revenue Service. We are currently conducting a
       survey to help assess the IRS’ ability to effectively communicate important tax issues to
       taxpayers and preparers. Do you have a few minutes to speak with me?
    2. This is not a review of your client’s tax return. The information you provide will be
       compiled, and your client’s identity will not be disclosed.
       The time required for this telephone call will vary depending on your responses. However, it
       should not take longer than 5 minutes. Your response is voluntary and will remain
       completely confidential. There are no penalties for not replying. We are prohibited by law
       from providing information concerning your client’s tax account to third parties without his
       or her permission. We are contacting you, in part, because your client might not have
       received the full tax benefit or refund that it was entitled to.
    3. We selected a sample of tax returns filed for Tax Year 2006 that did not claim the Telephone
       Excise Tax Refund. This refund is available to almost all businesses that use long-distance
       telephone service. IRS records show that your client’s company did not claim this refund on
       its Tax Year 2006 return. In regard to this, would you mind if I ask you a few questions?
       Q1: Which of the following reasons best describe(s) why you (or the company you prepared
           the taxes for) did not claim the refund?
           A. You were not aware of it.
           B. You were aware of it but forgot to claim it.
           C. You were aware of it but believed that you did not qualify for it (A-C, assess whether the
              taxpayer qualified1 then skip to Q3).
           D. The prior records were not available.
           E. The prior records were available, but the amount of work and associated fees outweighed the
              amount of refund you would receive.


1
  In general, any taxpayer (individual or business) who paid the telephone excise tax as part of its long-distance or
bundled service during the refund period (after February 28, 2003, and before August 1, 2006) is eligible to request
the refund on its Tax Year 2006 Federal income tax return. This includes individuals, businesses, and non-profit or
tax-exempt organizations. Taxpayers can base their refund requests on the actual amount of tax paid. To do this, a
taxpayer must fill out a Credit for Federal Telephone Excise Tax Paid (Form 8913) and attach the Form to the regular
Tax Year 2006 income tax return. However, many taxpayers do not want to look through up to 41 months of old
telephone bills or lack records they need to calculate the actual amount of tax paid. For that reason, the Federal
Government developed an estimation method to calculate the TETR.
                                                                                                            Page 13
                  The Telephone Excise Tax Refund Was Not Claimed on Business
                     Tax Returns Primarily Because of the Perceived Work and
                                    Expense Involved to Do So


         F. (If other, have them explain).
         G. No telephone service or long-distance service.
    Q2: Were you aware that there is a relatively simple method available for estimating the
        refund amount?2 (Y/N)
    Q3: Which of the following do you normally use to obtain the tax information needed to
        prepare the return?
           A.   Tax forms and instructions.
           B.   IRS publications (how are they obtained?).
           C.   IRS outreach programs.
           D.   IRS.gov.
           E.   Internet – other tax-related sites.
           F.   Commercial tax research software (RIA, CCH, BNA) or tax service.
           G.   Other.
    Q4: Which of the following methods would be the best way that the IRS could inform you of
        a new tax law change?
           A.   Tax forms and instructions (“WHAT’S NEW”).
           B.   IRS publications.
           C.   IRS outreach programs.
           D.   IRS.gov.
           E.   Internet – other tax-related sites.
           F.   Television.
           G.   Radio.
           H.   Newspapers.
           I.   IRS email.
           J.   Mail.
           K.   Other.
    Q5: Are you aware that you can still claim the TETR by filing an amended return? (Y/N)
    Q6: Will you amend the return to receive this refund? (Y/N)
    Q7: If the IRS had offered a standard amount, would you have claimed it, or do you believe
        that it would have benefited your client? (Y/N)

2
  The estimation method requires businesses to compare only two telephone bills from Tax Year 2006 (April and
September) to determine the percentage of their telephone expenses attributable to the excise tax on long-distance
service. They must first figure the telephone tax as a percentage of their April 2006 bill (which included the excise
tax for both local and long-distance service) and of their September 2006 telephone bill (which included only the tax
on local service). The difference between these two percentages should then be multiplied by the total telephone
expenses for the 41-month period. The refund is capped at 2 percent of telephone expenses for businesses with
250 or fewer employees and 1 percent for businesses with more than 250 employees.
                                                                                                           Page 14
           The Telephone Excise Tax Refund Was Not Claimed on Business
              Tax Returns Primarily Because of the Perceived Work and
                             Expense Involved to Do So



Q8: How many accounting professionals work for your firm?
Q9: How many business returns did you prepare last year (estimate) and what percentage
    claimed the TETR?




                                                                                 Page 15
